IN THE SUPREME COURT OF THE UNITED STATES
No.
BARBARA NINA DAVIS
, Petitioner,
V.
MTGLQ INVESTORS, LP,
, Respondent.

CERTIFICATE OF SERVICE

I, John J. Anastasio, counsel for the petitioner Barbara Nina Davis certify
that on this 27th day of November, 2019, I caused three copies of the Petition
for Writ of Certiorari to be served under Rule 29.3, by prepaid first-class mail
on the following counsel:
Brian A. Wahl, Esq.
Bradley Arant Boult Cummings LLP
1819 5th Avenue North
One Federal Place
Birmingham, Alabama 35203
Email:
bwahl@bradley.com
Attorney for Respondent
further certify that all parties required to be served have been served.

J. ANASTASIO
Suite 2$L^
3601 Sodth East Ocean Boulevard
Stuart, Florida 34996
(772) 286-3336
ESERVICE@PSLLAW.NET
Email:
Counsel for the Petitioner

Jj

